Attorneys for Petitioner
Jeffrey Michael Schwab
Counsel of Record
Liberty Justice Center
208 South LaSalle Street, Suite 1690
Chicago, IL 60604
jschwab@libertyjusticecenter.org
312-263-7668
Party name: Susan Bennett
Attorneys for Respondents
Frank Henry Bieszczat
Counsel of Record
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, IL 60601
frank.bieszczat@illinois.gov
312-814-2234
Party name: Kwame Raoul, Andrea Waintroob, Judy Biggert, Gilbert O'Brien, Jr., Lynne
Sered,and Lara Shayne
Jacob Raffel Karabell
Counsel of Record
Bredhoff & Kaiser, P.L.L.C.
805 15th Street, N.W. Suite 1000
Washington, DC 20005
jkarabell@bredhoff.com
202-842-2600
Party name: AFSCME Council 31, AFL-CIO; AFSCME Local 672
Caitlin F Satterly
Hodges, Loizzi, Eisenhammer, Rodick & Kohn LLP
401 SW Water Street, Suite 106
Peoria, IL 61602
fsatterly@hlerk.com
309-671-9000
Party name: Moline-Coal Valley School District No. 40

